Pension Benefit Guaranty Corporation
   Office of Inspector General

     Semiannual Report to Congress
  April 1, 2004 to September 30, 2004
                          Mission
  The Office of Inspector General is an independent and
objective voice that helps Congress, the Board of Directors
and PBGC protect the pension benefits of American workers
by promoting positive change, accountability, and integrity


                           Vision
         We will be recognized by our stakeholders as
       the primary source of objective & independent
              information for their key decisions




                          Values


     Respect                                      Excellence
We will treat others                            We will constantly
 as we would like                             innovate & improve
 them to treat us                            the quality and value
                                                  of our work



                           Integrity
                   We will be a role model
                    of ethical behavior



                                                     Cover: the Capitol and PBGC
                               Pension Beneﬁt Guaranty Corporation
                                                                Ofﬁce of Inspector General
                                                  1200 K Street, NW, Washington, DC 20005-4026


October 31, 2004

The Honorable Elaine Chao
Chairman, PBGC Board of Directors


On behalf of the Ofﬁce of Inspector General (OIG) for the Pension Beneﬁt Guaranty Corporation
(PBGC), I am pleased to submit this Semiannual Report to the U.S. Congress. The report summarizes
OIG activities for the six-month period ending September 30, 2004. It details our efforts to improve
the economy and efﬁciency of PBGC operations; describes our efforts to prevent fraud, waste, and
misconduct; and fulﬁlls our reporting requirements under the Inspector General Act.

We set our mission to be an independent and objective voice that helps the Congress, the Board of
Directors, and PBGC management protect the pension beneﬁts of American workers by promoting
positive change, accountability, and integrity. In the last six months, we have continued our emphasis
on improving communication with management and focusing our work on important issues.

We worked collaboratively with PBGC management to identify ways to ensure reliable and complete
ﬁnancial reporting, enhance efﬁciency, improve customer service, and promote ethical business prac-
tices. PBGC’s initiative under the direction of the chief ﬁnancial ofﬁcer to identify, document, test, and
report on key internal controls is one of the ﬁrst of its kind in the federal government. We fully sup-
port these efforts because they demonstrate PBGC’s commitment to strengthen internal controls and
improve management oversight.

Two priorities for our ofﬁce during this reporting period were accelerated ﬁnancial reporting and
demarcating the line between the authority of OIG and the oversight responsibilities of management.
The OMB required that FY 2004 audited ﬁnancial statements be issued by November 15, 2004—75
days earlier than last year. The OIG worked closely with PBGC management to meet this requirement.
I am also encouraged by the progress we made by working collaboratively to better deﬁne the over-
sight roles and responsibilities of management and the OIG. We believe these efforts will improve the
quality and effectiveness of audit oversight, foster better communication, and prevent duplication.

As PBGC celebrates its 30th anniversary, it will continue to face many challenges. PBGC’s growing
deﬁcit has focused attention on the agency, and many are questioning the viability of deﬁned beneﬁt
pension plans without comprehensive legislative reform. At the same time, PBGC will have to deal
with the dramatic increase in workload caused by terminations of underfunded plans. The OIG fully
supports the PBGC’s efforts to encourage a constructive dialogue with the Congress, the Administra-
tion, the Board of Directors, and other stakeholders about comprehensive reforms in the laws govern-
ing deﬁned beneﬁt plans that are needed to protect the pensions of 44 million workers and retirees.
Based on input from key stakeholders and knowledge gained from our work, we have identiﬁed
what we believe are the most important challenges the Corporation faces. We no longer consider
the appeals process to be a major challenge for PBGC because substantial progress has been made
in reducing backlogs. Because contracting activity doubled from 1999 to 2003 and now represents
more than 60 percent of the annual operating budget, we are adding procurement and contracting
to our list of management challenges. We plan to devote signiﬁcant resources to reviewing contract
management in the coming year to assist PBGC in controlling contract costs and improving contract
management.

I am grateful for your support of my ofﬁce, as well as to the management of the Corporation for its
cooperation and responsiveness to our work. We are proud to be part of PBGC and look forward to
working with the Congress, the Board of Directors, and management to protect the pension beneﬁts
of American workers.




Robert L. Emmons

Inspector General

Table of Contents

Letter to the Chairman

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The Pension Beneﬁt Guaranty Corporation
The Ofﬁce of Inspector General

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Overview
Audit Activity
    Governance
    Financial Management
    Program Operations
    Information Technology Security
    Procurement and Contracting
Other Audit Activity
Access to Information
Management Decisions

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Overview
Activity This Period
     Signiﬁcant Investigations
     Summary of Investigative Activities

Other Ofﬁce of Inspector General Activities . . . . . . . . . . . . . . . . . . . . . . . . 21
Review of Proposed Statutory and Regulatory Changes
Customer Satisfaction Surveys
Internal Activities
External Activities

Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Cross-Reference to Reporting Requirements of the Inspector General Act
Inspector General Audit Reports
Reports Issued with Questioned Costs
Reports Issued with Recommendations That Funds Be Put to Better Use
Signiﬁcant Open Recommendations
Audit Recommendations Open More Than 24 Months

Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30




                                        SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004                            iii
iv   PENSION BENEFIT GUARANTY CORPORATION
Executive Summary

This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Beneﬁt Guaranty Corporation (PBGC) Ofﬁce of Inspector General (OIG)
for the period April 1, 2004, through September 30, 2004. During this period, we
focused much of our effort on accelerated ﬁnancial reporting and demarcating the
line between the authority of the OIG and the oversight responsibilities of manage-
ment. When accomplishing audit and investigative work, we will ensure that our work
accords with our mission to be an “independent and objective voice for Congress, the
Board of Directors, and PBGC.” We want to focus our work on the challenges facing
PBGC and to be the primary source of timely and objective information for the organi-
zation. We will accomplish our work demonstrating our values of respect, excellence,
and integrity.

In the audit area, our work included the following:

•	 Governance—working with the Board of Directors, executive management, inde-
   pendent audit oversight, and audit policy (see page 5).
•	 Financial management—accelerated ﬁnancial statement reporting, ﬁnancial state-
   ment auditing, and systems integration (see page 8 ).
•	 Program operations—issuing a report on the economy and efﬁciency of PBGC’s
   contracted ﬁeld beneﬁt administration ofﬁces; as advisory members, working with
   teams to address premium accounting issues and the OMB’s PART assessment
   (see page 9).
•	 Information technology security—submitting the OMB-mandated response on the
   agency’s progress, and continuity of operations (see page 12).
•	 Procurement and contracting—beginning a new responsibility (see page 13).

In the investigative area, we received a record number of allegations of wrongdoing: 60
inquiries, of which 35 became cases. We closed ﬁve cases and 36 inquiries during the
reporting period. We conducted signiﬁcant investigative work this period, including—

•	 recovering stolen PBGC laptop computers, resulting in four indictments (see page 18);
•	 determining that PBGC employees and contractors were misusing PBGC computers
   and e-mail to view and share pornography (see page 18);
•	 receiving an indictment against an individual who stole a pension check (see page
   19); and
•	 closing 10 inquiries related to pension beneﬁt fraud (see page 19).

We also report on the agency’s actions on two investigative reports we issued in
prior periods.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004       1
2   PENSION BENEFIT GUARANTY CORPORATION
Introduction

The Pension Benefit Guaranty Corporation
The Pension Beneﬁt Guaranty Corporation (PBGC, or the Corporation) was established
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA), as
amended (5 U.S.C. §§ 1301-1461), as a self-ﬁnancing, wholly owned federal govern-
ment corporation to administer the pension insurance program. ERISA
requires that PBGC (1) encourage the continuation and maintenance of
voluntary private pension plans, (2) provide for the timely and uninter-    How is PBGC funded?
rupted payment of pension beneﬁts to participants and beneﬁciaries,         PBGC receives no funds from
and (3) maintain premiums at the lowest level consistent with carrying
out PBGC’s obligations.                                                     general tax revenues. Operations

For about 44 million Americans, PBGC provides assurance that their           are ﬁnanced by insurance premi-
retirement beneﬁts will be paid, up to a statutory limit. PBGC protects      ums, investment income, and
the pensions of participants in certain deﬁned beneﬁt pension plans
(i.e., plans that promise to pay deﬁnitely determinable retirement           assets and recoveries from pension
beneﬁts). Such deﬁned beneﬁt pension plans may be sponsored indi-
                                                                             plans trusteed by PBGC.
vidually or jointly by employers and unions. In recent testimony, PBGC
reported that it insures pension beneﬁts worth $1.5 trillion and is re-
sponsible for paying beneﬁts to nearly one million people in more than
3,200 terminated deﬁned beneﬁt plans. Beneﬁt payments totaled about $2.5 billion
in ﬁscal year 2003 and are expected to grow to nearly $3 billion in FY 2004.

In its FY 2003 ﬁnancial statement, the PBGC reported that it has assets of about $35
billion, liabilities of $46 billion, and a net deﬁcit of $11 billion.


The Office of Inspector General
The mission of the Ofﬁce of Inspector General (OIG) is to be an independent and
objective voice that helps the Congress, the Board of Directors, and PBGC protect the
pension beneﬁts of American workers by promoting positive change, accountability,
and integrity. To accomplish this goal, the OIG conducts agency audits, inspections,
and investigations to provide our stakeholders with information they need to make
decisions. Our OIG staff consists of 13 employees; two are investigators and one is an
administrative assistant. We have received ﬁve additional full-time equivalent posi-
tions that we are working to ﬁll now.

Major change continued during this reporting period. We developed strategic goals to
focus on the stakeholder, the business, and the employee. To provide value, we must
focus our work on the challenges that PBGC is facing, whether we are issuing audit,
evaluation, and investigative reports or consulting with PBGC and participating on
various teams and in working groups. We are committed to exhibiting our values of
respect, excellence, and integrity in all we do.


                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004      3
                           Our approach to audit planning concentrates our efforts on identifying issues that
                           are important to PBGC. We maintain an inventory of suggested audits that we receive
                           from a variety of sources, including the Board of Directors and PBGC’s senior manag-
                           ers. Each year, we assess risk in terms of material impact on operations and potential
                           for adverse publicity for the Corporation. Based on this risk assessment, we identify
                           the most important challenges on which to focus our work. The ﬁnal step is to plan
                           and conduct audits that address those challenges. Following are the major questions
                           on which we will focus in the coming year:

                           •	 Does PBGC have a governance model that ensures reliable and complete ﬁnancial
                              reporting, effective customer service, and ethical business dealings?
                           •	 Does PBGC have the strong ﬁnancial controls that are needed to protect assets and
                              minimize costs?
                           •	 Does PBGC effectively balance operational efﬁciency with optimal customer service?
                           •	 Do PBGC contractors provide quality products and services at a reasonable price?
                           •	 Do PBGC’s information systems maximize customer service while protecting the
                              privacy and integrity of information?

                           We have scheduled audits in 2004 and 2005 to address each of these challenges.

                           As required by the Chief Financial Ofﬁcers Act, we continue to audit PBGC’s ﬁnancial
                           statements. The OIG has a multiyear contract with an independent public accountant
                           (IPA) to perform the audit of the Corporation’s FY 2003 and FY 2004 ﬁnancial statements.

                                          In our attempt to maximize limited resources, our approach to in-
Who does the OIG report to?               vestigations is to apply strict criteria in evaluating the quality of the
                                          allegations received. For example, we evaluate allegations against the
The OIG is independent of manage-
                                          potential criminal and civil violations, the statute of limitations, the
ment, and reports to the Congress         potential for negative publicity for PBGC, and the total assets involved.
                                          This allows us to concentrate on investigative issues that are most
and the Secretary of Labor in her         important to PBGC.
capacity as Chairman of the Board
                                           The OIG follows the standards contained in the Quality Standards
of Directors.                              for Federal Ofﬁces of Inspector General, published by the President’s
                                           Council on Integrity and Efﬁciency (PCIE) and the Executive Council on
                                           Integrity and Efﬁciency (ECIE). These standards require audits to be
                           conducted in accordance with Government Auditing Standards, issued by the Gov-
                           ernment Accountability Ofﬁce. Our investigations comply with Quality Standards for
                           Investigations, which have been accepted by the PCIE and ECIE.




                   4       PENSION BENEFIT GUARANTY CORPORATION
Audits

Overview
Our approach to audits of Corporate programs and operations is to focus our work
on major management challenges. Using our past work and input from the Board of
Directors and senior managers, we identiﬁed what we believe are the most important
challenges facing the Corporation: governance, ﬁnancial management, program opera-
tions, information technology security, and procurement and contracting. In addition
to conducting traditional audits and evaluations in these challenge areas, the OIG staff
participated on corporatewide teams addressing various issues of joint concern and
looked for opportunities to provide consultation. Our goal is to have a positive impact
on the decision-making process of the Board of Directors and PBGC management.


Audit Activity
                                                                               The Board of Directors, PBGC
1. Governance                                                                  management, and the Ofﬁce of
The Board of Directors, PBGC management, and the Ofﬁce of Inspector            Inspector General are committed to
General are committed to a governance model that ensures reliable
                                                                               a governance model that ensures
and complete ﬁnancial reporting, effective customer service, and ethi-
cal business dealings. To assist the Corporation in addressing the chal-       reliable and complete ﬁnancial
lenge of corporate governance, the OIG is working with the Board of
                                                                               reporting, effective customer service,
Directors and management to identify ways to improve its governance.
                                                                               and ethical business dealings.
Board of Directors
The members of the Board of Directors—the Secretaries of Labor,
Treasury, and Commerce—oversee the programs and operations of PBGC. The OIG
continued to work with the Board of Directors to assess the process for overseeing the
Corporation in a way that balances the requirements for greater oversight without cross-
ing the line into management’s responsibilities. During the reporting period, the OIG
met with the Board and its representatives to—

•	 discuss the status of corrective actions on material weaknesses and reportable
   conditions contained in the annual ﬁnancial audit;
•	 identify major management challenges, including a new emphasis on procurement
   and contracting; and
•	 provide an overview of the collaborative efforts of management and the OIG to
   achieve a 45-day close of the ﬁnancial statements.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004           5
                            Periodic meetings provide the OIG a forum to keep the Board informed and use our
                            independent work to identify operational improvements, assess performance, and en-
                            courage accountability. At the conclusion of each meeting, the OIG meets separately
                            in executive session with the Board members. The OIG looks forward to a continuing
                            dialogue with the Board on how to best provide appropriate oversight of PBGC.


                            Internal Controls
                         PBGC management is a major component of the Corporation’s governance model and
                         is responsible for implementing internal controls that ensure effective and ethical op-
                         erations. A major aspect of this responsibility is identifying business risks and imple-
                                         menting controls to mitigate those risks. Although not required to do
                                         so, management has aggressively implemented several initiatives to
Challenges Facing the Corporation        identify key controls and assess the overall control environment.
• Governance                               These efforts are among the ﬁrst in the federal government to compre-
• Financial Management                     hensively identify, document, test, and report on the agency’s signiﬁ-
                                           cant internal controls. The OIG supports these initiatives because they
• Program Operations                       demonstrate PBGC’s commitment to strengthen internal controls and
• Information Technology Security          improve management oversight of the operations and programs.
                                           OIG ﬁnancial auditors will continue to coordinate their work with
• Procurement and Contracting              management’s internal control efforts to prevent duplication of effort
                                           and save resources.


                            Independent Audit Oversight
                            In September 2000, the Government Accountability Ofﬁce (GAO) issued a report that
                            identiﬁed several deﬁciencies in PBGC’s contract management. One of these deﬁcien-
                            cies involved the independence of PBGC’s contract audit activities. Until recently, the
                            primary responsibility, resources, and activities devoted to this function were per-
                            formed by management under the oversight of the Chief Financial Ofﬁcer. The GAO
                            reported that this situation created a lack of organizational independence to conduct
                            contract audits for the agency. To resolve this deﬁciency, the GAO outlined a recom-
                            mendation for PBGC management that would promote better objectivity and indepen-
                            dence of its contract auditing activities.

                            Because PBGC had not satisﬁed the GAO’s recommendation—and to facilitate a reso-
                            lution of this issue—the OIG initiated a follow-up audit to review the facts surround-
                            ing the issue and the impact of recent changes in government auditing standards. In
                            addition, we reviewed the actions PBGC management had taken and proposals they
                            had made to satisfy the GAO’s recommendation. To conduct this audit, we coordinated
                            our work with the GAO, interviewed agency ofﬁcials, benchmarked with other federal
                            agencies, and collected and analyzed contract and contract audit information.

                            Over several months, the OIG engaged in a constructive dialogue with PBGC manage-
                            ment and the GAO to ensure that there was a common understanding of the intent of the
                            GAO’s original recommendation and reasons that it remained open; the impact of the
                            new independence standard issued by the GAO in the Government Auditing Standards;




                    6       PENSION BENEFIT GUARANTY CORPORATION
and the Inspector General’s authority to conduct audits. As a result, management has
agreed on the following:

•	 The OIG is responsible for conducting independent contract audit oversight.
•	 The internal PBGC department is not independent to conduct audits, will not refer
   to its work as “contract audits,” and will not cite the Yellow Book auditing standards.
•	 PBGC will consult with the OIG before awarding contracts to public accounting ﬁrms
   for audits.

Based on management’s actions, the GAO closed its recommendation, and there was
no longer a need for the OIG to issue a follow-up audit report.


Audit Policy
To promote a better understanding of audit oversight responsibilities, the OIG issued
an audit policy to deﬁne its statutory responsibilities under the Inspector General
(IG) Act. The goal of this policy is to improve the quality and effectiveness of audit
oversight by fostering better communication and preventing duplication. Recogniz-
ing that both the OIG and PBGC management contract with nonfederal auditors, the
policy speciﬁes the OIG’s responsibility to avoid conﬂicts of interest, and protect the
interests of PBGC. However, the IG Act is not intended to conﬂict with management’s
responsibility to review or oversee such PBGC operations as—

•	 understanding internal controls and verifying that they are operating effectively,
•	 performing regulatory audits or reviews to satisfy PBGC’s oversight responsibilities
   under ERISA (e.g., audits when trusteeing a plan or Premium Compliance Reviews
   performed by PBGC’s Contracts and Control Review Department), and
•	 management reviews of contractor proposals to provide the contracting ofﬁcer with
   better information.

The OIG will review proposed contracts for audit services provided by nonfederal au-
ditors to determine whether the work duplicates the work of the OIG, causes a conﬂict
of interest, or affects auditor independence.

To assist the OIG in carrying out its responsibilities, management agreed to inform
the OIG of contracts for nonaudit services provided by nonfederal auditors before an
award. The OIG will promptly inform management of potential concerns, such as du-
plication or conﬂict of interest. We will work with management to develop and imple-
ment guidelines for this policy by the end of 2004.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004        7
                                             2. Financial Management
                                             PBGC is a major government enterprise that manages assets of more than $35 bil-
                                             lion. In FY 2004, the Corporation paid out about $2.5 billion in beneﬁt payments to
                                             retirees. For this reason, strong ﬁnancial management controls are needed to protect
                                             assets and minimize costs. At the end of FY 2003, PBGC had a net deﬁcit position of
                                             $11.5 billion. Because of this situation, the OIG continues to focus much of its work on
                                             ﬁnancial management issues to help management address this challenge.

                                                                            Accelerated Financial Reporting
 ACCELERATED FINANCIAL REPORTING                                            PBGC is committed to complying with the federal gov-
 Days to Prepare Audited Financial Statements                               ernment’s mandate for accelerated reporting on audited
                 250                                                        ﬁnancial statements. Last year, PBGC submitted its ﬁnancial
                                                                            statements to the Ofﬁce of Management and Budget (OMB)
                 200    fy 00       fy 01                                   on January 5, 2004, almost a month before the OMB’s dead-
                                                                            line. This year’s OMB mandate requires that the FY 2004
Number of Days




                         183         182
                 150
                                            fy 02    fy 03                  audited ﬁnancial statements be issued by November 15,
                                                                            2004, which will present an even greater challenge.
                 100                         123     123

                                                             fy 04            The OIG and its ﬁnancial auditors, PricewaterhouseCoo-
                  50
                                                                              pers LLP (PwC), continue to meet with management to
                                                                     46
                  0
                                                                              assist in identifying PBGC’s challenges to completing ﬁ-
                       3/31/2001   3/31/2002 1/31/2003 1/31/2004 11/15/2004   nancial statements earlier. Some of the challenges PBGC
                                     Mandated Due Date                        is addressing are identifying, documenting, and testing
                                                                              its controls; modifying its methodology for estimating
                                                 contingency reserves; and requiring analyses for the third-quarter ﬁnancial close that
                                                 were formerly performed only at year-end. The auditors are accelerating much of the
                                                 audit work, and they plan to test the controls of PBGC’s new processes on the third-
                                                 quarter close. We applaud PBGC’s commitment to examine its operations for efﬁcien-
                                                 cy and effectiveness and to produce well-supported ﬁnancial statements.


                                             Financial Statement Audit
                                             Under the general guidance of the OIG, PwC began the ﬁnancial audit work very early
                                             this year. When the work is completed, the OIG will issue three reports related to
                                             the audit of PBGC’s ﬁnancial statements: (1) an opinion on the ﬁnancial statements,
                                             (2) the report on internal control, and (3) the report on compliance with applicable
                                             laws and regulations. In addition, the OIG will issue two separate management letter
                                             reports as a follow-on to the FY 2004 Financial Statement Audit. One management
                                             letter will report ﬁndings and recommendations concerning the program and ﬁnancial
                                             operations within PBGC, and the second will cover PBGC’s information technology
                                             environment, including general computer controls and application controls related to
                                             the ﬁnancially signiﬁcant systems.


                                             Reserve Methodology for Loss Contingencies
                                             During the audit of PBGC’s FY 2003 and 2002 ﬁnancial statements, the Report on
                                             Internal Control contained a recommendation for PBGC to reevaluate the methods



                                    8        PENSION BENEFIT GUARANTY CORPORATION
by which it calculates its reserves for loss contingencies for deﬁned beneﬁt plans to
include a more actuarially sound methodology for estimating the loss contingency.
During this semiannual period, PBGC hired a contractor with actuarial experience to
assist in developing a more actuarially sound methodology. Also, the OIG and PwC
met often with PBGC management in a collaborative manner to discuss the recom-
mendation and the contractor’s proposed approaches. As a result, PBGC is expected
to begin implementing a revised methodology for estimating the loss reserve for its FY
2004 ﬁnancial statements. We will report the results in our FY 2004 ﬁnancial state-
ments audit report.


Systems Integration Project
The Corporation’s lack of integrated ﬁnancial management systems was identiﬁed as
a reportable condition in past audit reports. Lack of integrated ﬁnancial systems can
signiﬁcantly affect the Corporation’s ability to accurately and efﬁciently accumulate and
summarize information required for internal and external ﬁnancial reporting. With the
introduction of accelerated reporting, this issue could negatively affect the ability of
PBGC to complete its OMB reporting and ﬁling requirements in a timely manner.

As a result of our continued highlighting of the issue, PBGC made integration of
ﬁnancial systems a priority in its strategic plan. In January 2004, a working group was
established to develop an action plan for integrating systems that affect ﬁnancial
statements. The OIG participated in this working group as an advisory member. A plan
of action has been developed and presented to the executive director and the project
steering committee and is now awaiting funding and resources prior to completing the
next step toward addressing the systems integration issue.

                                                                   PARTICIPANTS AND BENEFICIARIES
3. Program Operations                                              RECEIVING PBGC PAYMENTS FROM THE
                                                                   SINGLE-EMPLOYER PROGRAM
PBGC is constantly facing the challenge of balancing                           900
operational efﬁciency with providing optimal customer                          800               Deferred Payees

service, while protecting Corporate resources. During this                                       Participants Receiving Beneﬁts
                                                                               700
reporting period, the OIG issued a report on PBGC’s ﬁeld
                                                                   Thousands




                                                                               600
beneﬁt administration and conducted work in procure-
                                                                               500
ment and contracting activities. In addition, as a result of
                                                                               400
previous audit work, management proceeded in its efforts
                                                                               300
to complete a business process reengineering project for
the Premium Accounting System. The results of this proj-                       200

ect will be used to design and implement a new system to                       100
make the premium process more efﬁcient and effective.                            0
                                                                                     1994 1995
                                                                                     1994 1995 1996
                                                                                               1996   1997 1998
                                                                                                      1997 1998 1999
                                                                                                                1999      2000 2001
                                                                                                                          2000 2001   2002 2003
                                                                                                                                      2002 2003

                                                                                                       Fiscal Year
Field Beneﬁt Administration Evaluation
(2004-9/23178)
PBGC’s responsibility for paying pension beneﬁts has increased substantially over the
past 10 years. As of September 30, 2003, PBGC was responsible for the pensions of
more than 930,000 people—more than 457,000 who are currently receiving beneﬁts
and another 375,000 who will begin to receive beneﬁts when they retire in the future.


                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004                               9
     Field Beneﬁt Administration (FBA) contractors perform the vast majority of beneﬁt and
     plan administration processing.

     An FBA is a contract ofﬁce in the ﬁeld that works for PBGC’s Insurance Operations De-
     partment (IOD) to provide participant and beneﬁt processing services and assistance
     to case processing. Most of these services fall under the following categories:

     •	 gathering and maintaining participant data (which is necessary in order to calculate
        the participants’ accrued beneﬁt);
     •	 performing participant processing (this administration activity includes sending no-
        tiﬁcation letters concerning PBGC’s trusteeship, requesting information from partici-
        pants, putting participants into pay status, changing address information, etc.);
     •	 processing beneﬁt determination letters (BDLs) (this is the letter that informs the
        participants of their beneﬁt entitlements under ERISA as calculated by PBGC);
     •	 performing plan closing; and
     • performing ongoing administration activities of closed plans.

     In July 2003, the Chief Operating Ofﬁcer and the Chief Management Ofﬁcer requested
     that the OIG evaluate the concept for operating FBA ofﬁces. To accomplish this, the
     OIG engaged a team from the accounting ﬁrms of Regis & Associates PC and Clifton
     Gunderson LLP. The overall objective of this evaluation was to determine whether the
     current FBA concept optimizes customer service at the lowest possible cost. Working
     with management, the review team identiﬁed ﬁve key conclusions:

     •	 The current FBA concept limits PBGC’s ability to consider alternative operational
        models that might increase efﬁciency and decrease cost, while maintaining cus-
        tomer service standards.
     •	 PBGC should consider alternative contracting approaches to provide better value,
        encourage competition, and promote innovation by vendors. Currently, PBGC uses
        labor-hour contracts to engage FBA contractors.
     •	 There are opportunities for PBGC to achieve greater efﬁciencies while sustaining or
        even increasing its customer satisfaction levels.
     •	 The existing performance metrics do not accurately measure contractor performance.
     •	 A number of industry best practices could be implemented in beneﬁt processing to
        achieve improved efﬁciency and economy without compromising customer service
        quality.

     In addition, the review team was asked to evaluate PBGC’s Customer Contact Center.
     Because all telephone calls are directed into the Contact Center, its operation is a
     signiﬁcant part of the plan-processing work ﬂow. The review team concluded that—

     •	 identiﬁable operational efﬁciencies and potential cost savings could be realized
        through alternative approaches; and
     •	 higher-skilled Customer Contact Center employees, supported by enhanced tech-
        nology and access to plan and beneﬁt information, could handle many, if not most,
        calls to resolution at the ﬁrst point of contact.



10   PENSION BENEFIT GUARANTY CORPORATION
Finally, the review team identiﬁed the following three signiﬁcant issues:

•	 Generally, individuals were knowledgeable in their job areas. However, the re-
   view team noted multiple instances in which key individuals did not have the “big
   picture” of how their job supports the mission, goals, and objectives of PBGC. In
   today’s business environment, cross-training and cross-functional capability are
   increasingly important as organizations strive to maximize productivity without
   expanding resource use. We concluded that PBGC could improve performance by
   developing better employee understanding of how individual responsibilities link to
   corporate goals and objectives. This perspective would encourage a better connec-
   tion between the strategic plan and performance.
•	 The review team found that FBAs tend to be overadministered and undermanaged.
   FBAs are given very detailed criteria for staff recruiting and requirements for work
   processes and work ﬂow. There is, however, little analysis and oversight of resource
   allocation and level of effort in interim work steps. PBGC has an opportunity to
   improve performance by focusing its attention on such major milestones as output
   of beneﬁt determination letters.
•	 Measuring performance in a way that links individual accomplishment to the orga-
   nization’s strategic goals and objectives is consistent with the business model used
   by many of today’s successful private-sector organizations. Making these linkages is
   difﬁcult. However, this approach allows organizations to move from assessing perfor-
   mance to managing performance, hence developing a culture based on results.

In summary, we found that the current FBA concept is functional, allowing PBGC to
complete its work effectively with some ﬂexibility for volume ﬂuctuations. This has al-
lowed PBGC to deal with a dramatically increasing workload in recent years. However,
with the prospect of greater increases in workloads, the opportunities identiﬁed by
the review team to modify the current FBA concept are even more timely. These modi-
ﬁcations will allow PBGC to increase efﬁciency and decrease cost, while maintaining
customer service standards. PBGC upper-level management was very receptive to the
ﬁndings and conclusions. We plan to follow up on the agencies’ plans for incorporat-
ing our suggestions into their operations.


Premium Accounting Business Process Reengineering
The OIG is continuing its support of the Corporation’s efforts to reengineer its Premi-
um Accounting System. In August 2003, the ﬁrm Booz-Allen Hamilton began work on
the requirements phase of the business process reengineering (BPR) of the Premium
Accounting System. During this phase, the OIG provided advice to the PBGC project
manager on requirements relating to system control and to issues identiﬁed in previ-
ous OIG audit/review work.

The BPR requirements phase was approaching completion at the end of the reporting
period. The main product of this phase was a functional requirements speciﬁcation for
the reengineered Premium Accounting System. This functional speciﬁcation will provide
the basis for a solicitation to select a contractor to implement the reengineered system.
In July 2004, PBGC contracted out for this phase of the work, and a production system




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004       11
     is expected by March 31, 2005. The OIG will monitor the system-implementation phase
     and continue to provide advice, as appropriate, to the project manager.

     A successful Premium Accounting BPR will result in more accurate, timely, and reliable
     premium accounting information for PBGC and its customers. This will lead to more
     effective debt management and improved ﬁnancial management and reporting.


     Program Assessment Rating Tool Team
     The OIG continued participating as a nonvoting adviser to an agency team that was
     preparing for OMB’s review using its Program Assessment Rating Tool (PART). PART is
     a diagnostic tool designed by the OMB to rate federal programs and assist the OMB
     and the Congress in making funding decisions. It addresses the President’s Manage-
     ment Agenda initiative to integrate budget and performance and the Government
     Performance and Results Act requirements.

     In an advisory capacity to the PART team, the OIG commented on proposed responses
     to the PART questionnaire and assisted in identifying supporting documentation.
     During the summer of 2004, the OMB conducted the PART assessment in conjunction
     with its FY 2006 budget review of the Department of Labor, which includes PBGC. The
     PART results will be published by the OMB in February 2005.


     4. Information Technology Security
     PBGC has major initiatives to enhance customer service by providing access to
     information through Web-based applications. Protecting the privacy and integrity of
     customer information is a major challenge for PBGC. The OIG continues to include in
     its annual plan audits to assist the Corporation in meeting this challenge.


     Federal Information Security Management Act (FISMA) Report
     Over the past years, the OIG and PBGC have focused on improving the effectiveness
     of the Corporation’s security program and reducing associated risks to the business
     operations. This has included several speciﬁc security-related reviews performed by
     the OIG, such as follow-up work on network attack and penetration testing, a com-
     prehensive review of security policy and procedures, and assessments of the busi-
     ness systems and the control structure surrounding those systems. The results of
     this work—some of which is continuing as part of the ﬁnancial statement audit—are
     included in the annual report to the OMB, in compliance with FISMA reporting require-
     ments. This report will be completed and sent to the OMB in October 2004.

     To further assist PBGC with its security development program, the OIG will continue to per-
     form independent evaluations on an annual basis, in addition to scheduled audit projects.




12   PENSION BENEFIT GUARANTY CORPORATION
Continuity of Operations
Planning for continuity of operations (COOP) in the event of an emergency has been a
major challenge for PBGC. Over the past years, we have worked with PBGC to address
COOP as an enterprisewide process.

PBGC continues to improve in its efforts to prepare for an unexpected interruption in
normal business activities. PBGC engaged in two COOP events during this period. As
part of the governmentwide test that took place on May 12, 2004, designated PBGC
managers reported to an emergency relocation site to perform tasks associated with
simulated emergency conditions. Later in the summer, PBGC also tested the recover-
ability of its major business applications associated with the beneﬁt payment process
and the ﬁnancial reporting systems. Although not all applications or processes func-
tioned successfully, the testing did provide PBGC with critical information required to
correct those conditions that led to applications failure.



5. Procurement and Contracting
PBGC spends about 60 percent of its operating budget on contractors because of
limitations on the number of full-time employees it is authorized to hire to perform its
statutory responsibilities. Therefore, the use of contracts and the procurement pro-
cess is an important management activity at PBGC. As a result of the OIG’s follow-up
on independent contract audits, mentioned above, the agency has agreed that the
OIG will be responsible for conducting independent contract audit oversight. Before
we could exercise this responsibility, we had to conduct a number of planning activi-
ties, including—

•	 preparing a database of contracts that needed audits, and procurement activities
   that needed review;
•	 developing a risk-based approach for prioritizing and identifying contracts and pro-
   cesses that needed audits performed;
•	 issuing contracts for audit services with the Defense Contract Audit Agency and
   several independent public accounting ﬁrms to perform this work until the OIG can
   hire additional employees; and
•	 coordinating our work with the agency to ensure a smooth and systematic transi-
   tion to this new responsibility.

Our initial audit work in this area includes two types of engagements that started in
September. First, we initiated a performance audit of PBGC’s procurement process to
identify ways to improve operations, facilitate decision making, and improve account-
ability. Second, we started a series of contract audits (nine) to verify that the amounts
billed by contractors are allowable, reasonable, supported, and consistent with the
terms of the contracts. We will issue several reports on our work and expect to com-
plete this initial effort in May 2005.




                            SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004       13
                                           Other Audit Activity
Who oversees the quality of 

OIG work? 
                                Peer Review of Peace Corps
The OIG receives a peer review             We conducted a quality control review of the audit operations of the
                                           Peace Corps Ofﬁce of Inspector General. External peer reviews are con-
every three years to verify compli-        ducted within the OIG community to evaluate the audit organization’s
ance with professional standards           system of internal quality control and to ensure that it complies with
                                           generally accepted government auditing standards. The peer review
issued by the President’s Council          encompassed the elements of staff qualiﬁcations, independence, audit
on Integrity and Efﬁciency.                performance, and quality assurance. Peace Corps ofﬁcials said that our
                                           observations and suggestions will assist them in continuing to improve
                                           their audit operations.


                          Planned Audit Projects
                              Erroneous Payments Review
                              To support the OMB’s initiative to strengthen controls over erroneous payments, we
                              have begun a review of PBGC’s accounts payable process to evaluate controls over
                              vendor veriﬁcation and invoice processing. As part of the audit, we will review policy
                              and procedures for paying invoices, verifying vendors, and identifying duplicate and
                              erroneous payments. We plan to issue a report in the second quarter of FY 2005.

                              Purchase Card Review
                              We have begun a review of the process for issuance and use of purchase cards at
                              PBGC. In this audit, we will evaluate controls over spending limits, types of purchas-
                              es, approval processes, payment processing, and efﬁciency of payment. The results
                              of this review will be used to help PBGC identify any control weaknesses in the use
                              or issuance of purchase cards and provide effective solutions to remediate those
                              conditions. We plan to issue a report in the second quarter of FY 2005.



                          Access to Information
                          Under the Inspector General Act, the Inspector General is to have unfettered access
                          to all agency records, information, or assistance when engaged in an investigation or
                          audit. Whenever access to requested records, information, or assistance is unreason-
                          ably refused or not provided, the Inspector General must promptly report the denial to
                          the agency head.

                          During this six-month reporting period, the Inspector General’s access to information
                          was not restricted.




                 14       PENSION BENEFIT GUARANTY CORPORATION
Management Decisions
The Inspector General is required to report the following information about manage-
ment decisions on audit reports that occurred during this six-month period:
• There were no audit reports for which there was not a management decision.
• There were no signiﬁcant revised management decisions.
• There were no management decisions with which the Inspector General disagreed.




                          SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004   15
16   PENSION BENEFIT GUARANTY CORPORATION
Investigations

Overview
A major responsibility of the Inspector General is to receive and investigate com-
plaints from PBGC employees, the public, and other sources concerning violations
of law, rule, or regulation; mismanagement; gross waste of funds; abuse of author-
ity; or a substantial and speciﬁc danger to the public health and safety. Individuals
may disclose information or make complaints to the Inspector General through the
OIG Hotline (see announcement on back cover page). The Inspector General protects
the legal rights of whistle-blowers and complainants and
takes great care to not disclose their identity without their
consent.                                                           ALLEGATIONS RECEIVED
                                                                  100                                    95
The number of allegations we have received has quadru-
                                                                  90
pled over the past four years.
                                                                  80
                                                                   70
OIG Hotline                                                       60
The OIG operates a separate toll-free Hotline telephone           50                                43
number and a conﬁdential Hotline post ofﬁce box. The OIG          40
Hotline telephone is answered by an investigative staff           30        23
                                                                                          27
assistant for a two-hour period, Monday through Friday. At        20
all other times, a recorded message provides information           10
about the Hotline service and refers callers to our main           0
telephone number.                                                          fy01      fy02       fy03     fy04




Activity This Period
Signiﬁcant Investigations
Management Action on Ethical Misconduct
During our last reporting period, we issued a report of investigation ﬁnding that a
senior-level PBGC employee had improperly participated in procurement activities
involving a former business partner and friend who received multiple noncompetitive
contracts over the course of several years, and failed to cooperate in the OIG investi-
gation. This matter was declined for prosecution by the U.S. Attorney’s Ofﬁce and was
referred to PBGC for disciplinary action. During the course of management’s review,
the employee chose to leave federal service.

In our Semiannual Report to Congress for the period of April 1 through September 30,
2003, we reported that we completed investigations into allegations of wrongdoing
by another senior-level PBGC manager. We had found that the employee had engaged
in a pattern of ethics violations and misconduct involving contracting irregularities
several years ago, conducted improper business relationships with employees and



                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004           17
                            contractors, and failed to comply with ethics rules for disclosing business relation-
                            ships. After the U.S. Attorney’s Ofﬁce declined criminal and civil prosecution, we
                            referred the case to PBGC management for disciplinary action. The employee received
                            and served an unpaid 14-day suspension.

                            The following cases are still open; however, signiﬁcant investigative action took
                            place and criminal and/or administrative processes were begun during the period.


                            Laptop Thefts
                          Through our liaison with and the cooperation of the San Diego Police Department
                          CATCH Team, we were able to recover a stolen U.S. government laptop computer,
                          resulting in the arrest and indictment of four individuals. In addition to being charged
                          with theft of government property, the individuals were charged with destroying and
                                          altering data on a computer; child pornography; identity theft; credit
                                          card theft; and the possession, sale, and distribution of controlled sub-
Does the OIG ever ﬁnd that alle-          stances. We appreciate the expedient action of Detective Dave Hen-
                                          dron and the San Diego CATCH Team in their response to our request
gations are untrue or unfounded?          for assistance.
Yes, about one quarter of the
                                           During this reporting period, we were able to recover an additional
allegations we receive are not             stolen U.S. government laptop computer. The laptop was traced to a
substantiated.                             Texas university, where it was discovered in the possession of a faculty
                                           member. The university police conﬁscated the computer, and the case
                                           was referred to the local district attorney.


                            Using PBGC E-mail for Pornography
                            Based on information provided by the PBGC information systems security ofﬁcer, we
                            initiated investigations that found that employees and contractors were viewing and
                            sharing pornographic and offensive material through U.S. government computers and
                            the PBGC e-mail system. No child pornography was noted. We identiﬁed 30 federal
                            and contract employees who were involved in sharing these materials. From our in-
                            vestigations, we conclude that this problem is more expansive than these 30 individu-
                            als and is not exclusively a PBGC issue. The cases were referred for possible criminal
                            prosecution, which was declined by the U.S. Attorney’s Ofﬁce. These individuals have
                            been referred to PBGC management for consideration of disciplinary action.

                            In addition, through our investigation we noted that enormous amounts of e-mail
                            are retained by employees and contractors. We noted that for the 30 individuals we
                            reviewed, there were more than 300,000 e-mails retained in their active e-mail boxes,
                            with one individual having more than 45,000 e-mails. While not all of these were por-
                            nographic or offensive, we found that the majority were of a personal nature. Personal
                            PowerPoint slides, photographs, videos, games, and music downloads were myriad.
                            We are working with PBGC management to implement policies and procedures to
                            prevent this type of misuse of U.S. government resources.




                   18       PENSION BENEFIT GUARANTY CORPORATION
Pension Fraud Cases
As a result of our investigation, an individual was indicted in Chattanooga, Tennessee,
for stealing a participant’s $4,000 pension check.

We also completed 10 investigations/inquiries that raised issues of fraud relating to
pension plans and beneﬁts, including the following:

•	 A complaint alleged that a participant’s grandson had committed fraud in an at-
   tempt to obtain a pension back-payment of more than $150,000 due his deceased
   grandfather. We determined that the grandson was deceitful in not providing full
   disclosure of pertinent information; however, he did not violate any criminal laws.
   The matter was referred to PBGC’s Ofﬁce of the General Counsel to work out a
   settlement agreement between the two parties who were claiming entitlement to
   the money.
•	 We completed our inquiry into an allegation that family members in two locations
   improperly applied for the beneﬁts of a deceased participant. The participant had al-
   ready designated a sole beneﬁciary. The family members were trying to receive a ben-
   eﬁt under the participant’s name, with a different Social Security number. No pension
   funds were diverted, and the sole beneﬁciary is now receiving the pension beneﬁts.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004       19
     SUMMARY OF INVESTIGATIVE ACTIVITIES
     For the Six-Month Period Ending September 30, 2004


     Allegations Intake Statistics
         CASES
         Pending beginning of period                             14
         Opened                                                  35
         Closed                                                   5
         Pending end of period                                   44

         INQUIRIES
         Pending beginning of period                             34
         Received this period                                    60
         Converted to a case                                     35
         Closed                                                  36
         Pending end of period                                   23


     Nature of Inquiries Received
         Fraud, waste, and abuse                                 34
         Wrongdoing                                               5
         Ethical issues                                           2
         Improprieties relating to pension beneﬁts               12
         Customer service                                         7


     Inquiries Received through Hotline
         Received this period                                     5
         Referrals to agency                                      1
         OIG Customer Assistance                                  4
         Cases opened                                             0


     Results of Cases and Inquiries Closed
         Matters referred for criminal prosecution
             • Prosecution declined—case closed                   2
         OIG audit referral                                       1
         Pension Improprieties
             • Fraud substantiated—participant repaid             2
             • Fraud unsubstantiated                              8
         Referred to agency for disciplinary/corrective action    7
         Customer service                                         6
         Allegation disproved or not substantiated                1
         Administrative closing                                  11
         Referral to other law enforcement entities               3
         TOTAL                                                   41




20   PENSION BENEFIT GUARANTY CORPORATION
Other Ofﬁce of
Inspector General Activities
Review of Proposed Statutory
and Regulatory Changes
A major responsibility of the OIG under the IG Act is to independently review changes
to laws and regulations that are proposed by PBGC. During this period, PBGC pro-
posed changes to the regulation that contains the rules for valuing the pension ben-
eﬁts of participants in pension plans that terminate. The primary change was to adopt
the more current mortality assumptions that are used in the private sector. Upon
review, we believe the changes are reasonable.


Customer Satisfaction Surveys
To assist us in achieving our value of excellence, we worked with an
                                                                              Why does the OIG survey its
agency team to develop a survey that was randomly sent, via e-mail,
to PBGC employees and contractors who had dealt with the OIG during           customers?
the past year in an audit activity. We asked questions about the value
                                                                              The OIG uses the results of surveys
of the product, the professionalism of our interactions, and whether we
listened to their concerns and responded. The employees and contrac-          to identify processes that need
tors were able to respond anonymously. We will use their responses
to address noted concerns and to continue to improve in areas of
                                                                              improvement and to develop
strength. We plan to survey our customers each year to benchmark              performance measures.
performance and evaluate our actions for improvement.


Internal Activities
OIG staff members have engaged in several activities within PBGC to promote fraud
prevention, improve relationships between the OIG and PBGC, and provide consul-
tations to managers to improve agency operations. Among these activities are the
following:

•	 An OIG auditor participated as a consultant on the agency team in preparing PBGC’s
   response to the Program Assessment Rating Tool for the Ofﬁce of Management and
   Budget’s ﬁrst assessment.
•	 The Deputy Inspector General and Assistant Inspector General for Investigations
   participated as speakers in PBGC’s ethics training for 450 ﬁlers. We also consulted
   with agency ethics ofﬁcials to ensure appropriate coverage of issues noted in our
   investigations.




                           SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004         21
     •	 The Inspector General and an ethics counselor from PBGC’s Ofﬁce of the General
        Counsel made a presentation on ethics and leadership to mentors and participants
        in Leaders Growing Leaders, PBGC’s executive development program.
     •	 The investigative staff made presentations in PBGC’s timekeepers’ training ses-
        sions, emphasizing the importance of their role in preventing and detecting fraud.
     •	 Management consulted with us on a variety of issues, including the propriety of
        certain expenditures, after which we provided input into a policy directive.
     •	 The Inspector General and Deputy Inspector General continue their involvement in
        PBGC’s structured mentoring programs.



     External Activities
     Various staff members participated in external professional activities, including
     the following:

     •	 The Inspector General serves as the Executive Council on Integrity and Efﬁciency
        (ECIE) representative to the President’s Council on Integrity and Efﬁciency (PCIE)/
        ECIE Human Resources Committee. He recently agreed to lead a team that will de-
        velop a training curriculum for competencies that are common to the IG community.
        He also meets monthly as a participant in the Financial Regulatory Agency Inspec-
        tors General Coordination Group.
     •	 The Inspector General represents government auditors as a member of the Inter-
        national Seminars Committee of the Institute of Internal Auditors. This committee
        focuses on identifying emerging trends in auditing and on training courses and
        seminars to address these trends.
     •	 The Federal Audit Executive Council (FAEC) held its annual conference in Williams-
        burg, Virginia, in June 2004. Conference guest speakers this year included repre-
        sentatives from the OMB, GAO, OPM, and individual public accounting ﬁrms. The
        OIG’s Assistant Inspector General for Audits attended this year’s conference and is a
        regular member of the FAEC.
     •	 The OIG information technology auditor served on a PCIE committee to provide
        input to the OMB and the Chief Information Ofﬁcer Council for improving the annual
        FISMA reports to the OMB. This auditor also serves as an ofﬁcer for the Baltimore
        chapter of the Information Systems Audit and Control Association.
     •	 One of our audit managers has been working with a PCIE/ECIE working group that
        is revising the Guidance for Conducting External Quality Control Reviews of Audit
        Operations of Ofﬁces of Inspectors General. This publication is used by OIGs when
        they conduct peer reviews of other OIG audit operations.




22   PENSION BENEFIT GUARANTY CORPORATION
Appendix

CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the
Inspector General Act of 1978, as amended, to the speciﬁc pages in the report where
they are addressed.

Inspector General
Act Reference          Reporting Requirements                             Page
Section 4(a)(2)        Review of legislation and regulations.             21
Section 5(a)(1)        Signiﬁcant problems, abuses, and deﬁciencies.      5-13, 17-19
Section 5(a)(2)        Recommendations with respect to signiﬁcant         5-13, 17-19
                       problems, abuses, and deﬁciencies.
Section 5(a)(3)        Prior signiﬁcant recommendations on which          27-29
                       corrective action has not been completed.
Section 5(a)(4)        Matters referred to prosecutorial authorities.     17-19
Section 5(a)(5)        Summary of instances in which information          14
                       was refused.
Section 5(a)(6)        List of audit reports by subject matter, showing   24
                       dollar value of questioned costs and recommen-
                       dations that funds be put to better use.
Section 5(a)(7)        Summary of each particularly signiﬁcant report.    5-13, 17-19
Section 5(a)(8)        Statistical table showing number of reports and    25
                       dollar value of questioned costs.
Section 5(a)(9)        Statistical table showing number of reports and    26
                       dollar value of recommendations that funds be
                       put to better use.
Section 5(a)(10)       Summary of each audit issued before this           None
                       reporting period for which no management
                       decision was made by end of reporting period.
Section 5(a)(11)       Signiﬁcant revised management decisions.           None
Section 5(a)(12)       Signiﬁcant management decisions with which         15
                       the Inspector General disagrees.




                          SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004     23
24
                                       INSPECTOR GENERAL AUDIT REPORTS*
                                       For the Six-Month Period Ending September 30, 2004

                                       Report Number              Report Title                                    Date Issued               Dollar Value    Dollar Value     Dollar Value
                                                                                                                                            of Questioned   of Better-Used   of Unsupported
                                                                                                                                            Costs           Funds            Costs
                                       Evaluations
                                       2004-8/32112 	             Semiannual Report on Audit                      04/09/2004                -0-             -0-              -0-
                                                                  Follow-up
                                       2004-9/23178               Evaluation of the Field Beneﬁts                 04/30/2004                -0-             -0-              -0-
                                                                  Administration Concept




PENSION BENEFIT GUARANTY CORPORATION
                                       2004-11/32113              Semiannual Listing of Audit                     07/30/2004                -0-             -0-              -0-
                                                                  Recommendations
                                       2004-13/23184-1            Peer Review of the Peace Corps                  09/30/2004                -0-             -0-              -0-
                                                                  Ofﬁce of Inspector General

                                       *This statistical information is required by section 5(a)(6) of the Inspector General Act of 1978, as amended.
REPORTS ISSUED WITH QUESTIONED COSTS*
For the Six-Month Period Ending September 30, 2004


                                                         Number           Questioned Unsupported
                                                         of Reports       Costs      Costs
A.     For which no management decision                       0                -0-                -0-
       had been made by the commencement
       of the reporting period.
B.     Which were issued during the                           2**         $1,251,019         $752,812
       reporting period.
       Subtotal (Add A. & B.)                                 0           $1,251,019         $752,812
C.     For which a management decision was                    0                -0-                -0-
       made during the reporting period.
       (i) dollar value of disallowed costs                   0                -0-                -0-
       (ii) dollar value of costs not disallowed              0                -0-               - 0-
D.     For which no management decision                       2           $1,251,019         $752,812
       had been made by the end of the
       reporting period.
E.     For which no management decision                       0                -0-                -0-
       was made within six months of
       issuance.

* 	 This statistical information is required by Section 5(a)(8) of the Inspector General Act of 1978,
    as amended.
** 	These reviews were conducted by PBGC’s Contracts and Control Review Department (CCRD).
    CCRD is an internal management ofﬁce that conducts reviews of PBGC contracts.




                                  SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004             25
     REPORTS ISSUED WITH RECOMMENDATIONS
     THAT FUNDS BE PUT TO BETTER USE*
     For the Six-Month Period Ending September 30, 2004

                                                                                   Number             Dollar
                                                                                   of Reports         Value
     A.      For which no management decision had been made                             0                  -0-
             by the commencement of the reporting period.
     B.      Which were issued during the reporting period.                             0                  -0-
             Subtotal (Add A. & B.)                                                     0                  -0-
     C.      For which a management decision was made                                   0                  -0-
             during the reporting period.
             (i)   dollar value of recommendations that were                            0                  -0-
                   agreed to by management
             –     based on proposed management action                                  0                  -0-
             –     based on proposed legislative action                                 0                  -0-
             (ii) dollar value of recommendations that were                             0                  -0-
                  not agreed to by management
     D.      For which no management decision had been                                  0                  -0-
             made by the end of the reporting period.
     E.      For which no management decision was made                                  0                  -0-
             within six months of issuance.

     * This statistical information is required by section 5(a)(9) of the Inspector General Act of 1978,
       as amended.




26   PENSION BENEFIT GUARANTY CORPORATION
                                                            SIGNIFICANT OPEN RECOMMENDATIONS
                                                            For the Six-Month Period Ending September 30, 2004


                                                            Material Weakness Recommendation
                                                            Report	                       Report    Date       Recommendation Recommendation
                                                                                          Number    Issued     Number
                                                            Audit of the Pension Beneﬁt   2004-2/   01/15/04   IOD-214        When determining PBGC’s best estimate of the Multiemployer
                                                            Guaranty Corporation’s        23176-2                             program’s liability for the present value of nonrecoverable future
                                                            Fiscal Years 2003 and 2002                                        ﬁnancial assistance, PBGC should use a model that considers market
                                                            Financial Statements                                              changes from the asset information date to PBGC’s ﬁnancial statement
                                                                                                                              date.


                                                            Reportable Condition Recommendations
                                                            Report	                       Report    Date       Recommendation Recommendation
                                                                                          Number    Issued     Number
                                                            Audit of the Pension Beneﬁt   98-3/     03/23/98   FOD-268        Complete its efforts to integrate its ﬁnancial management systems, in
                                                            Guaranty Corporation’s        23126-2                             accordance with OMB Circular A-127 and its Five-Year Financial
                                                            Fiscal Years 1997 and 1996                                        Management Systems Plan.
                                                            Financial Statements
                                                            Audit of the Pension Beneﬁt   2003-3/   01/30/03   CTO-5 	        Assign speciﬁc resources to complete the implementation of a fully
                                                            Guaranty Corporation’s        23168-2                             functional and integrated enterprise-wide information security
                                                            Fiscal Years 2001 and 2000                                        program, with priority given to implementation and monitoring of
                                                            Financial Statements                                              technical security standards.
                                                            Audit of the Pension Beneﬁt   2003-3/   01/30/03   CTO-6          Develop enforcement mechanisms to ensure that all departments




SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004
                                                            Guaranty Corporation’s        23168-2                             comply with the enterprise-wide information security program as well
                                                            Fiscal Years 2001 and 2000                                        as consistently enforce policies and procedures for logical access to
                                                            Financial Statements                                              information resources that are based on the concepts of “least




27
                                                                                                                              possible privilege.”
                                       Report                        Report    Date       Recommendation Recommendation

                                                                     Number    Issued     Number                         

                                       Audit of the Pension Beneﬁt   2004-2/   01/15/04   FOD-325 	       Address the matters noted above, and those raised by the OIG, to
                                       Guaranty Corporation’s        23176-2                              improve controls surrounding:
                                       Fiscal Years 2003 and 2002                                         •	 Completeness of universe of beneﬁt plans required to make
                                       Financial Statements                                                  premium payments;
                                                                                                          •	 Accuracy of reporting by plan sponsors of participant and




28
                                                                                                             plan data;
                                                                                                          •	 Follow-up with plans with under or over payments, or that
                                                                                                             failed to ﬁle;
                                                                                                          •	 Premiums system data quality; and
                                                                                                          •	 Premium estimation techniques.
                                       Audit of the Pension Beneﬁt   2004-2/   01/15/04   FOD-326         In addition, develop a comprehensive procedures manual for
                                       Guaranty Corporation’s        23176-2                              processing and estimating premiums.
                                       Fiscal Years 2003 and 2002
                                       Financial Statements
                                       Audit of the Pension Beneﬁt   2003-3/   01/30/03   CFND-5          Implement independent review procedures of unfunded beneﬁt
                                       Guaranty Corporation’s        23168-2                              liability calculations for contingent liabilities.
                                       Fiscal Years 2001 and 2000
                                       Financial Statements
                                       Audit of the Pension Beneﬁt   2004-2/   01/15/04   CFND-8          Continue to review and promote compliance with procedures




PENSION BENEFIT GUARANTY CORPORATION
                                       Guaranty Corporation’s        23176-2                              surrounding the classiﬁcation of plans to ensure accuracy of plan
                                       Fiscal Years 2003 and 2002                                         classiﬁcation.
                                       Financial Statements
                                       Audit of the Pension Beneﬁt   2004-2/   01/15/04   FOD-327 	       Reevaluate the methods by which PBGC calculates its reserves.
                                       Guaranty Corporation’s        23176-2                              Management should consider:
                                       Fiscal Years 2003 and 2002                                         • Types of risk and changes in exposure
                                       Financial Statements                                               • Clearly deﬁning the purpose of the reserves
                                                                                                          •	 Gathering meaningful data
                                                                                                          •	 Using sound actuarial methods
                                       Audit of the Pension Beneﬁt   2004-2/   01/15/04   FOD-328         Retrospectively review the effectiveness of the reserve process each
                                       Guaranty Corporation’s        23176-2                              year, and utilize the knowledge and resources of other departments,
                                       Fiscal Years 2003 and 2002                                         including the actuarial staff.
                                       Financial Statements
                                                            AUDIT RECOMMENDATIONS OPEN MORE THAN 24 MONTHS
                                                            For the Six-Month Period Ending September 30, 2004

                                                            Report	                       Report     Date       Recommendation Recommendation
                                                                                          Number     Issued     Number
                                                            Improvements Are Needed       99-2/      03/02/99   IOD-168        Enforce compliance with time accounting requirements established in
                                                            To Achieve Better Efﬁciency   23128-1                              IOD’s Procedures Manual.
                                                            And Effectiveness In PBGC’s
                                                            Beneﬁt Determination
                                                            Process
                                                            Fiscal Year 1998 Financial    99-8/      09/23/99   FOD-274        Enhance ﬁnancial reporting controls surrounding Premium Accounting
                                                            Statement Audit-              23132-3                              System to improve the system’s ability to accurately track premiums
                                                            Management Report                                                  receivable on a plan basis.
                                                            Fiscal Year 1998 Financial    99-8/      09/23/99   FOD-275        Analyze the existing year-end processes surrounding Premium
                                                            Statement Audit-              23132-3                              Accounting System and identify improvements that will reduce the
                                                            Management Report                                                  necessity of manual adjustments, validity testing, and reclassiﬁcations
                                                                                                                               at year-end.
                                                            Fiscal Year 1998 Financial    99-8/      09/23/99   IOD-181        Establish a formal reconciliation process for the plans assumed from
                                                            Statement Audit-              23132-3                              the prior paying agents whereby reconciliations are reviewed and
                                                            Management Report                                                  approved by an appropriate level of management.
                                                            Fiscal Year 2001 Financial    2002-6/    08/29/02   IOD-210        For cases with data sources more than ﬁve years old, implement a
                                                            Statement Audit-              23157-5                              procedure to determine whether 1) an updated data source would
                                                            Management Letter                                                  provide a more accurate estimate of the non-recoverable future
                                                                                                                               ﬁnancial assistance liability and 2) a valuation is available or can be
                                                                                                                               completed without a signiﬁcant burden on resources.
                                                            Fiscal Year 2001 Financial    2002-6/    08/29/02   IRMD-132       Develop and document policies and procedures for the performance of




SEMIANNUAL REPORT OF THE INSPECTOR GENERAL—SEPTEMBER 2004
                                                            Statement Audit-              23157-5                              periodic re-certiﬁcations of PBGC systems’ user accounts.
                                                            Management Letter
                                                            Fiscal Year 2001 Financial    2002-6/    08/29/02   IRMD-133       Implement periodic re-certiﬁcations of PBGC systems’ user accounts.





29
                                                            Statement Audit-              23157-5

                                                            Management Letter 

     Glossary

     Questioned Cost
     A cost the OIG has questioned because of an alleged violation of law, regulations,
     contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; because such cost is not supported by adequate documen-
     tation; or because the expenditure of funds for the intended purpose is unnecessary
     or unreasonable.


     Unsupported Cost
     A cost the OIG has questioned because of a lack of adequate documentation at the
     time of the audit.


     Disallowed Cost
     A questioned cost that management, in a management decision, has sustained or
     agreed should not be charged to the government.


     Funds to Be Put to Better Use
     Funds the OIG has identiﬁed in an audit recommendation that could be used more
     efﬁciently by reducing outlays, deobligating program or operational funds, avoiding
     unnecessary expenditures, or taking other efﬁciency measures.


     Management Decision
     Management’s evaluation of audit ﬁndings and recommendations and issuance of a
     ﬁnal decision concerning management’s response to such ﬁndings and recommendations.


     Final Action
     The completion of all management actions described in a management decision with
     respect to audit ﬁndings and recommendations. If management concluded that no
     actions were necessary, ﬁnal action occurs when a management decision is issued.


     Misconduct
     Action of employees or contractors that violates laws, rules, or regulations and for
     which corrective action is warranted.




30   PENSION BENEFIT GUARANTY CORPORATION
If you want to report or discuss confidentially
   any instance of misconduct, fraud, waste,
abuse, or mismanagement, please contact the
         Office of Inspector General.


             You can telephone:

     The Inspector General's HOTLINE
              1-800-303-9737

 For deaf or hard of hearing people, dial FRS
(800)-877-8339 and give the Hotline number to
                  the agent.

              Or you can write:

   Pension Benefit Guaranty Corporation
        Office of Inspector General
              P.O. Box 34177
       Washington, D.C. 20043-4177
